       DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Office of Inspector General

                                                                              Washington, D.C. 20201



March 11, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Office of Head Start – Internal Control Review of the Competitive Process for
               Awarding American Recovery and Reinvestment Act Funds (A-01-09-02507)


The attached final report provides the results of our review of internal controls over the process
for competitively awarding American Recovery and Reinvestment Act of 2009, P.L. No. 111-5
(Recovery Act), funds at the Office of Head Start (OHS). This review was part of the Office of
Inspector General’s (OIG’s) assessment of whether the Department of Health and Human
Services is using Recovery Act funds in accordance with legal and administrative requirements
and is meeting the accountability objectives defined by the Office of Management and Budget.

The Recovery Act, which was signed into law by President Obama on February 17, 2009,
includes measures to modernize our nation’s infrastructure, enhance energy independence,
expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those in greatest need.

Our objective was to assess the internal controls that OHS has in place over the competitive
grant-award process used to award Recovery Act expansion funds to determine whether the
controls have been suitably designed.

OHS’s internal controls over the competitive grant-award process used to award Recovery Act
funds, as described by OHS management, are suitably designed to provide reasonable assurance
that the specified internal control objectives would be achieved if the described internal controls
were applied as designed.

This report provides a sufficient understanding of OHS’s process for awarding Recovery Act
funds to grantees as the process pertains to internal control objectives in these areas:
authorization and approval; accuracy, validity and completeness; physical safeguards and
security; error handling; and segregation of duties.
Page 2 – Yvette Sanchez Fuentes


Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
Please refer to report number A-01-09-02507 in all correspondence.


Attachment
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




      OFFICE OF HEAD START –
 INTERNAL CONTROL REVIEW OF THE
COMPETITIVE PROCESS FOR AWARDING
     AMERICAN RECOVERY AND
     REINVESTMENT ACT FUNDS




                         Daniel R. Levinson
                          Inspector General

                            March 2010
                           A-01-09-02507
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the U.S. Department of Health
and Human Services (HHS) and its agencies are:

      Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

      Recovery Act funds are transparent to the public, and the public benefits of these funds are
       reported clearly, accurately, and in a timely manner.

      Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

      Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

      Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Recovery Act Funding for Head Start Programs

The Recovery Act provides $2.1 billion to the Administration for Children and Families (ACF)
to supplement the Head Start and Early Head Start programs. Of the $2.1 billion, the Act
earmarks $1 billion to carry out activities under the Head Start Act. The remaining $1.1 billion
is for the expansion of the Early Head Start program. The Recovery Act funds will remain
available for obligation until September 30, 2010.

Head Start was established as a Federal discretionary grant program by Title VI of the Omnibus
Budget Reconciliation Act of 1981, P.L. 97-35. The Head Start program funds local public and
private nonprofit and for-profit agencies to provide comprehensive child development services to


                                                 I
economically disadvantaged children and families and to promote school readiness by enhancing
the social and cognitive development of children.

In fiscal year (FY) 1995, the Early Head Start program was established to serve children from
birth to 3 years of age in recognition of the mounting evidence that the earliest years greatly
affect children’s growth and development. Early Head Start promotes healthy prenatal
outcomes, enhances the development of infants and toddlers, and promotes healthy family
functioning.

The Office of Head Start (OHS) within ACF administers the Head Start and Early Head Start
Programs.

OBJECTIVE

Our objective was to assess the internal controls that OHS has in place over the competitive
grant-award process used to award Recovery Act expansion funds to determine whether the
controls have been suitably designed.

RESULTS OF REVIEW

OHS’s internal controls over the competitive grant-award process used to award Recovery Act
funds, as described by OHS management, are suitably designed to provide reasonable assurance
that the specified internal control objectives would be achieved if the described internal controls
were applied as designed.

This report provides a sufficient understanding of OHS’s process for awarding Recovery Act
funds to grantees as the process pertains to internal control objectives in these areas:

      Authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority.

      Accuracy, validity and completeness: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted.

      Physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals.

      Error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management.

      Segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.




                                                 II
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              Recovery Act Requirements .................................................................................. 1
              Administration for Children and Families ............................................................. 1
              Recovery Act Funding for Head Start Programs ................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................... 3
               Objective ................................................................................................................ 3
               Scope...................................................................................................................... 3
               Methodology .......................................................................................................... 3

RESULTS OF REVIEW ............................................................................................................. 4

          AUTHORIZATION AND APPROVAL .......................................................................... 4
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Eligibility Requirements Are in Accordance
                With Laws, Regulations, Recovery Act Guidance, and Agency Policy............. 4
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used to Publicize the Program
                Are in Accordance With Laws, Regulations, Recovery Act Guidance,
                and Agency Policy .............................................................................................. 5
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Application Processing Procedures Are
                Established and Are in Accordance With Laws, Regulations, Recovery
                Act Guidance, and Agency Policy ...................................................................... 5
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use, and Reporting
                of Grant-Funded Operations Are in Accordance with Laws,
                Regulations, Recovery Act Guidance, and Agency Policy................................. 6
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and Are in Place..................... 6

          ACCURACY, VALIDITY, AND COMPLETENESS...................................................... 7
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achievable in an Economical
                and Efficient Manner ......................................................................................... 7
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Procedures Used to Process and Approve Grant
                Applications and Related Transactions Are Efficient ........................................ 7



                                                                    III
          Internal Control Objective 3: Internal Controls Provide Reasonable
            Assurance That Only Those Grant Requests That Meet the Eligibility
            Requirements Are Approved .............................................................................. 7
          Internal Control Objective 4: Internal Controls Provide Reasonable
            Assurance That the Grant Funds Are Awarded and Classified in Accordance
            With Federal and Recovery Act Policy .............................................................. 8
          Internal Control Objective 5: Internal Controls Provide Reasonable
            Assurance That Grantee Records Are Periodically Substantiated and
            Evaluated............................................................................................................. 8

PHYSICAL SAFEGUARDS AND SECURITY .............................................................. 8
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to and Use of Grant and Accounting Records, Critical
       Forms, Processing Areas, and Processing Procedures Are Permitted Only in
       Accordance With Policy ..................................................................................... 8
     Internal Control Objective 2: Internal Controls Provide Reasonable
       Assurance That Valuable Assets and Information Are Safeguarded From
       Unauthorized Access or Use............................................................................... 9

ERROR HANDLING ....................................................................................................... 9
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the Office of Head Start Accurately and Promptly Addresses
      Errors in Grant Application Information and Records ...................................... 9

SEGREGATION OF DUTIES ......................................................................................... 9
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual To Cause and
       Conceal Errors Are Reduced ............................................................................. 9




                                                          IV
                                               INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health and Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for HHS and its agencies are:

          Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable manner.

          Recovery Act funds are transparent to the public, and the public benefits of these funds are
           reported clearly, accurately, and in a timely manner.

          Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

          Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

          Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Administration for Children and Families

Within HHS, the Administration for Children and Families (ACF) is responsible for Federal
programs that promote the economic and social well-being of families, children, individuals, and
communities. ACF’s programs help to build strong, healthy, supportive communities that have a
positive impact on the quality of life and the development of children.



1
    http://www.hhs.gov/recovery/reports/index.html, accessed October 9, 2009.


                                                          1
Head Start and Early Head Start Programs

Head Start was established as a Federal discretionary grant program by Title VI of the Omnibus
Budget Reconciliation Act of 1981, P.L. 97-35. The Head Start program funds local public and
private nonprofit and for-profit agencies to provide comprehensive child development services to
economically disadvantaged children and families and to promote school readiness by enhancing
the social and cognitive development of children.

In fiscal year (FY) 1995, the Early Head Start program was established to serve children from
birth to 3 years of age in recognition of the mounting evidence that the earliest years greatly
affect children’s growth and development. Early Head Start promotes healthy prenatal
outcomes, enhances the development of infants and toddlers, and promotes healthy family
functioning.

In FY 2009, Congress appropriated $7.1 billion to fund Head Start’s and Early Head Start’s
regular operations.

Office of Head Start

The Office of Head Start (OHS) within ACF administers the Head Start and Early Head Start
Programs. 2 OHS awards discretionary grants to eligible Head Start grantees. OHS has the
authority to determine the recipients of the grants and the amounts awarded.

Recovery Act Funding for Head Start Programs

The Recovery Act provides $2.1 billion to ACF to supplement the Head Start programs. Of the
$2.1 billion, the Act earmarks $1 billion to carry out activities under the Head Start Act and the
remaining $1.1 billion for the expansion of the Early Head Start program. The Recovery Act
funds will remain available for obligation until September 30, 2010.

Following the funding requirements outlined in the Head Start and Recovery Acts, OHS plans to
use the $2.1 billion in Recovery Act funds to:

        expand the number of children enrolled in the Head Start programs,

        fund one-time program quality improvements for existing Head Start grantees,

        partially fund a 4.9-percent cost-of-living increase for employees of existing grantees,

        increase the training and technical assistance funds available to new and existing Head
         Start grantees,



2In the Head Start Act and throughout this report, the Head Start and Early Head Start programs are collectively

referred to as “Head Start programs” unless otherwise noted.


                                                         2
       increase funding to allow for monitoring of all new grantees, and

       increase funding for State Head Start Advisory Councils, which ensure statewide
        coordination and collaboration among early childhood programs and services in the State,
        including Head Start, child care, and prekindergarten programs and services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls that OHS has in place over the competitive
grant-award process used to award Recovery Act expansion funds to determine whether the
controls have been suitably designed.

Scope

We assessed OHS’s internal controls over the competitive grant-award process used to award
Recovery Act funds for program expansion. Our assessment was limited to determining whether
existing internal controls as described adequately achieved the internal control objectives for
(1) authorization and approval; (2) accuracy, validity, and completeness; (3) physical safeguards
and security; (4) error handling; and (5) segregation of duties.

We did not perform procedures to determine the operating effectiveness of these internal
controls. Accordingly, we express no opinion on the operating effectiveness of any aspect of
OHS’s internal controls over the grant-award process used to award Recovery Act funds,
individually or in the aggregate.

We performed fieldwork at OHS offices in Washington, DC, in May 2009.

Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing, or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of OHS’s internal control environment, we:

       reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
        by OMB, that OHS must follow for awarding grants;

       reviewed ACF and OHS organizational structure, including segregation of functional
        responsibilities, policy statements, operating manuals, and personnel policies;

       interviewed ACF and OHS management as well as operations, administrative, and other
        personnel responsible for developing, ensuring adherence to, and applying internal
        controls; and




                                                3
      reviewed the competitive grant-award process for two grants funded with Recovery Act
       funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our results based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our results
based on our audit objective.

                                    RESULTS OF REVIEW

OHS’s internal controls over the competitive grant-award process used to award Recovery Act
funds, as described by OHS management, are suitably designed to provide reasonable assurance
that the specified internal control objectives would be achieved if the described internal controls
were applied as designed.

This report provides a sufficient understanding of OHS’s process for awarding Recovery Act
funds to grantees as the process pertains to internal control objectives in these areas:

      Authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority.

      Accuracy, validity and completeness: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted.

      Physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals.

      Error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management.

      Segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.

AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Eligibility Requirements Are in Accordance With Laws, Regulations, Recovery Act
Guidance, and Agency Policy

      Authorized OHS staff create all funding opportunity announcements (FOA) using the
       Program Announcement Template System (PATS), consistent with guidance in ACF’s
       Program Announcements Processing Guide. PATS ensures that all announcements follow

                                                 4
       the Federal standards for program announcements, as well as all HHS and ACF grant
       policies.

      Before the FOA is posted, staff from all involved ACF offices review and approve the grant
       eligibility requirements spelled out in the FOA for accuracy and compliance with Division of
       Grants Policy administration policies and provisions, as outlined in ACF’s Program
       Announcement Processing Guide. Reviewers include staff in the Office of Grants Policy, the
       Office of Legislative Affairs and Budget, the Office of the General Counsel, the Office of the
       Assistant Secretary, and the Office of Grants Management.

      FOAs for Recovery Act funding opportunities require additional reviews and approvals by
       the Office of Legislative Affairs and Budget and OMB.

      OHS prioritizes and approves competitive grant applications based on compliance with
       the Head Start Act, Head Start Performance Standards, and local need as shown through a
       community assessment, pursuant to the HHS Grants Policy Statement.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used To Publicize the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

      OMB implementation guidance for the Recovery Act requires Federal agencies to
       provide information on the funding notifications made for all award types on Grants.gov
       with a link to the agency’s Web site.

      Authorized OHS staff posts FOAs, grant eligibility requirements, and Head Start program
       information on its Early Childhood Learning and Knowledge Center (ECLKC) Web site,
       Grants.gov, and Recovery.gov. To encourage timely awarding of Recovery Act funds,
       OHS posts synopses of Recovery Act funding opportunities on Grants.gov before posting
       the complete announcement to give potential applicants information as quickly as
       possible.

      ACF’s Division of Grants Policy reviews and approves Recovery Act FOAs to ensure
       that they comply with Recovery Act, Division, and OMB requirements. OHS has posted
       webcasts to the ECLKC Web site that explain the Recovery Act application process more
       fully. OHS also has added sections covering the Early Head Start Expansion grants and
       instructions for filling out the different sections of the grant application package.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Application Processing Procedures Are Established and Are in Accordance With
Laws, Regulations, Recovery Act Guidance, and Agency Policy

      OHS evaluates grant applications in a fair, equitable, timely, and bias-free manner based
       on procedures defined in the HHS Awarding Administration Grants Administration
       Manual, the funding opportunity announcements, review panel materials, and the review
       support contract for OHS.

                                               5
      A review panel assesses and scores all eligible applications for competitive Head Start
       awards.

      OHS’s management approves the final grant recipients, taking into account the funds
       available for each competitive area, the need for services in the proposed area, the size of
       the proposed grant, the reasonableness of the budget, and the cost per child based on the
       services that the applicant proposes, as well as the application score.

      Independent auditors perform periodic reviews of OHS’s grant application processing
       procedures during annual audits to ensure that these procedures comply with OMB
       Circular A-123.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Control, Use, and Reporting of Grant-Funded Operations Are in
Accordance With Laws, Regulations, Recovery Act Guidance, and Agency Policy

      Federal grant regulations require grantees to meet the Uniform Administrative
       Requirements, including the standards for financial management systems, found at
       45 CFR §§ 74 or 92, as applicable. Additionally, grantees must meet the cost principles
       found at 2 CFR §§ 220, 225, or 230, as applicable.

      OHS provides information on its ECLKC Web site to educate grantees on the Federal,
       HHS, Head Start, and Recovery Act operating requirements. In addition to applicable
       criteria, OHS posts explanations and interpretations of the regulations, as well as a
       question and answer section.

      For existing grantees, OHS considers the grantee’s performance and reviews of internal
       controls during program monitoring visits before approving additional grant awards.

      OHS has partnered with the HHS Office of Inspector General, Office of Audit Services,
       to perform reviews of applicants who have never received a Federal Head Start grant
       award before OHS approves the awards.

      OHS requires all Head Start grant recipients to sign certifications and assurances,
       including a Disclosure Form to Report Lobbying; assurance to comply with the Davis-
       Bacon Act (for construction projects); a Certification Regarding Debarment, Suspension,
       and Other Responsibility Matters; and ACF’s Assurances Statement for construction or
       nonconstruction grants before OHS approves grant awards.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and Are in Place

      The Authorized Organization Representative’s signature on the grant application ensures
       that the applicant organization will be accountable both for the appropriate use of funds
       awarded and for the performance of the grant-supported project or other activities

                                                6
       resulting from the application. The Authorized Organization Representative is also
       responsible to OHS for ensuring that the organization complies with the terms and
       conditions of individual awards and organization-wide requirements, such as those
       concerning financial management and property management.

      A grantee implicitly acknowledges and accepts an OHS award and its associated terms
       and conditions by drawing down grant funds. Once the award is accepted by the grantee,
       the terms and conditions of the award are binding.

ACCURACY, VALIDITY, AND COMPLETENESS

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achievable in an Economical and Efficient Manner

      Pursuant to the Head Start Performance Standards at 45 CFR 1302.10, OHS selects Head
       Start applicants based on the applicants’ qualifications and experience in providing
       comprehensive child development services and their ability to operate the most effective
       Head Start programs. During the application review process, OHS considers the cost
       effectiveness and the suitability of the proposed programs, as well as the proposed
       programs’ adherence to the Head Start Performance Standards. Additionally, OHS
       reviews the need for Head Start services in the communities served by the applicants.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used To Process and Approve Grant Applications and Related Transactions
Are Efficient

      OHS requires that all applications be submitted either electronically through Grants.gov
       or by mail. Grants.gov checks to ensure that no viruses are attached to the application.

      To expedite the grant application review process, OHS has developed uniform grant
       application forms, instructions for supplemental application information, and preprinted
       forms and scoring sheets.

      ACF’s Review Support Contract contains reimbursement rates to minimize cost overruns.
       For example, the Review Support Contract specifies the stipend amounts for application
       panel reviewers. The contractor is also instructed to minimize travel costs by securing
       the most economical travel fares.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That Only
Those Grant Requests That Meet the Eligibility Requirements Are Approved

      To ensure that only eligible grant applications are approved, OHS has established a
       multistep process that screens out ineligible applications at each step. The Grant Review
       Support Contractor performs the initial review to ensure that applications are complete
       and timely. OHS staff re-review any late or incomplete applications identified by the
       contractor before they are excluded.

                                               7
      Grant reviewers, who have experience in early childhood education, education finances,
       or Head Start, review and score each application independently based on Head Start
       eligibility and other relevant requirements.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That the
Grant Funds Are Awarded and Classified in Accordance with Federal and Recovery Act
Policy

      OHS monitors the total Head Start grant awards made each period to ensure that the total
       funds awarded do not exceed the appropriated amount, pursuant to the Anti Deficiency
       Act (31 USC § 1341(a)(1)).

      OHS calculates and monitors the total grant funds awarded to each State or competitive
       area to ensure that funds are allocated pursuant to section 640 of the Head Start Act.

      OHS established separate Common Account Numbers to track Recovery Act grant
       awards, in accordance with Recovery Act reporting requirements.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

      Pursuant to OMB Circular A-133 and 45 CFR §§ 74.26 or 92.26 as applicable, grantees
       that expend more than $500,000 in a fiscal year are required to obtain audits of their
       organization’s operations annually from private accounting firms.

      OHS Grants Management Officers and Program Officials use monitoring reports,
       correspondence from the grantee, financial statement audit reports, risk management
       meetings, and other available information to monitor cost and performance results,
       identify potential problems, and identify areas that may require technical assistance or
       enforcement action.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to and Use of Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance With Policy

      OHS provides for physical safeguards such as controlled access to buildings, files, and
       processing areas. OHS’s administrative offices are housed in a secure building where
       only employees with smart cards can access the office floor and office space.

      Because all grant applications are received and processed by OHS’s Grant Review
       Support Contractor, OHS requires the contractor’s offices to meet physical security
       requirements to prevent unauthorized access. These requirements are outlined in the
       contract.

                                                8
      OHS limits staff access to specific grant applications, records, and forms through
       computer-user restrictions and passwords.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Valuable Assets and Information Are Safeguarded From Unauthorized Access or Use

      Grant reviewers receive training on securing personally identifying information and
       safeguarding proprietary information before the review process begins.

      Grant reviewers receive only those applications that they will review. Before receiving
       payment, the grant reviewers must return all application materials and have their laptops
       scanned for and cleansed of applicants’ proprietary information.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
Office of Head Start Accurately and Promptly Addresses Errors on Grant Application
Information and Records

      The contractor reviews applications for errors that would immediately disqualify an
       applicant, such as late applications, applications for funding in excess of the ceiling for
       individual awards, and incomplete applications. The contractor separates these
       applications for a second review by OHS management before the applications are
       disqualified.

      OHS’s regional staff work with applicants selected for funding to correct any remaining
       errors during the final budget negotiation phase.

SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual To Cause and Conceal Errors Are Reduced

      During the application and grant selection process, segregation of duties ensures that no
       single person prepares the FOA, reviews the application, and selects the fundable
       applications. These controls reduce opportunities for an individual to cause or conceal
       errors. For example, OHS staff prepare and post the FOA after extensive review from
       OHS and ACF management. The contractor and OHS management screen ineligible
       applications before they are disqualified. Grant reviewers review and score applications
       but do not select the fundable applications. OHS management selects the fundable
       applications based on the grant reviewers scores and comments and on how services will
       be distributed across regions and States.




                                                 9
